      Department of Homeland Security



            FEMA Public Assistance Grant Funds 

           Awarded to the Alaska Department of 

             Transportation & Public Facilities, 

              Northern Region, Fairbanks, AK





DS-12-09                                             April 2012

                                                                              Office ofInspector General

                                                                              U.S. Department of Homeland Security
                                                                              Washington, DC 20528


                                                                              Homeland
                                                                              Security
                                                  APR 1 2 2012

MEMORANDUM FOR:



FROM:



SUBJECT:                                FEMA Public Assistance Grant Funds Awarded to the
                                        Alaska Departm~nt of Transportation & Public Facilities,
                                        Northern Region, Fairbanks, AK
                                        FEMA Disaster Number 1669-DR-AK
                                        Audit Report Number DS-12-09

We audited public assistance (PA) grant funds awarded to the Alaska Department of
Transportation & Public Facilities, Northern Region, Fairbanks, AK (Department), Public
Assistance Identification Number OOO-UPQJN-OO. Our audit objective was to determine whether
the Department accounted for and expended Federal Emergency Management Agency (FEMA)
PA grant funds according to federal regulations and FEMA guidelines.

The Department received a P A award of $1.3 million from the Alaska Division of Homeland
Security & Emergency Management (Grantee), a FEMA grantee, for damages resulting from
severe storms, flooding, mudslides, and landslides from October 8 through 13,2006. The award
provided 75% funding for 4 large and 10 small projects.! The audit covered the period from
October 8,2006, to November 30, 2011. We audited five projects totaling $1.1 million, or 88%
of the total award (see Exhibit, Schedule of Projects Audited).

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.




1   Federal regulations in effect at the time of the disaster set the large project threshold at $59,700.
We discussed issues related to this audit with FEMA, Grantee, and Department officials;
reviewed judgmentally selected project costs (generally based on dollar value); and performed
other procedures considered necessary to accomplish our objective. We did not assess the
adequacy of the Department’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. We did, however, gain an understanding of the
Department’s methods of accounting for disaster-related costs and its procurement policies and
procedures.

                                     RESULTS OF AUDIT

The Department generally expended and accounted for FEMA funds according to federal
regulations and FEMA guidelines. However, we identified $124,092 of ineligible force account
and travel costs because the Department did not maintain sufficient documentation to determine
their eligibility.

Federal rules and FEMA guidelines stipulate that—

   •	 Cost be adequately documented, and be necessary and reasonable for proper and efficient
      performance, to be allowable under a federal award. (2 CFR 225, Appendix A, Sections
      C.1.a and C.1.j)

   •	 Subgrantees have fiscal control and accounting procedures that permit the tracing of
      funds to a level of expenditure adequate to establish that such funds have not been used in
      violation of the restrictions and prohibitions of applicable statutes. (44 CFR 13.20(a))

   •	 A cost is reasonable if, in its nature and amount, it does not exceed that which would be
      incurred by a prudent person under the circumstances prevailing at the time the decision
      was made to incur the cost. (2 CFR 225, Appendix A, Sections C.2)

The claim included $124,092 for project numbers 48 and 49, for which the Department did not
maintain sufficient documentation to substantiate their reasonableness and eligibility.
Engineering services (construction management, basic engineering and design services) claimed
for these two projects amounted to 24% and 43%, respectively, of the construction costs for each
project. The majority of the documentation consisted of travel documents and time reports that
did not describe tasks or activities performed. Therefore, we were not able to verify the
eligibility of these costs. Thus, we question the engineering costs of $124,092 due to insufficient
documentation (see table 1).




                                                 2

                           Table 1: Engineering Services
                Claimed        Not Questioned                          Questioned
Project      Force             Force                Force                             Total
Number      Account Travel   Account Travel Account                     Travel      Questioned
             Labor             Labor                Labor                             Costs
   48        $72,978     $8,148       $5,511 $1,872         $67,467      $6,276        $73,743
   49         73,288     14,616       25,148 12,407          48,140       2,209         50,349
  Totals    $146,266    $22,764      $30,659 $14,279       $115,607      $8,485       $124,092

In its January 20, 2012, response to us, the Department disagreed with our finding. It considered
the costs to be necessary, reasonable, and consistent with its standard construction practice.
However, it did not provide sufficient documentation to address the deficiencies discussed in the
audit finding. In FEMA’s response to us on March 12, 2012, an official said that FEMA would
need to perform additional analysis to clarify the costs in question.


                                  RECOMMENDATION

We recommend that the Regional Director, FEMA Region X, disallow the engineering costs of
$124,092 (federal share $93,069) that were not sufficiently documented.


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Department officials during the audit and included
their comments in this report, as appropriate. We also provided written summaries of our finding
and recommendation in advance to FEMA, Grantee, and Department officials and discussed
them at exit conferences held with FEMA on November 29, 2011, and with Grantee and
Department officials on November 30, 2011. Grantee officials agreed with the response in the
Department’s January 20, 2012, letter. FEMA officials said that they required further analysis to
clarify the costs in question.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for the recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendation will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Significant contributors to this report were Humberto Melara, Jack Lankford, and Connie Tan.


                                                3

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Administrator, FEMA
       Audit Liaison, FEMA Region X
       Audit Liaison, FEMA (Job Code G-11-052)
       Audit Liaison, DHS




                                               4

                                                                      EXHIBIT




                     Schedule of Projects Audited

                October 8, 2006, to November 30, 2011

Alaska Department of Transportation & Public Facilities, Northern Region

                FEMA Disaster Number 1669-DR-AK



     Project    Project Award      Project Charges     Questioned
     Number        Amount             Reviewed           Costs
        13             $266,830             $266,830
        48              414,651              414,651         73,743
        49              290,327              290,278         50,349
       102               69,813               69,813
       109               59,493               59,493
      Totals         $1,101,114           $1,101,065       $124,092




                                   5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
